                                                                 r-

                                                                                 --
                                                                   -
                       .*-.
                       !      1-




                                   CLOSEOUT FOR M90100036
        This case was brought to the attention of OIG on October 24, 1990 by
   Ass                                    for             1 I l l ) h a d received a letter from
   0 the           ,    complainant, in which he alleged that proposal W u b r n i t t e d by
   7
   -                   the subject, contained plagiarized material. Tbe subject had allegedly used
   material collaboratively developed with the complainant without a citation or
   acknowledgment to the complainant. The complainant is a member of the
                      Athe
                     at   - 1                                the subjed, is a faculty member at
dna&
   -                             the Administrative Director at the                            Center
   at that mstitution.

     OIG determined that the proposal containing the allegedly plagiarized text was a revision
 of a declined proposal the subject had previously submitted to NSF. During the revision
 process the subject held discussions with a number of individuals, including the camplainant
 and some of the complainant's colleagues. However, the working relationship between the
 subject and the complainant, and the complainant's colleagues, broke apart before the
 submission of the revised proposal. The subject incorpomted the material that had been
 developed during those collaborative working sessions into the revised proposal, and
 submitted the proposal without an acknowledgment for the contributions of the complainant
 or his colleagues.

     OIG believes it is an author's responsibility to properly acknowledge the contributions of
 others. The subject agreed that he had failed to properly acknowledge the contributions of
 the individuals who had assisted him in developing the revised proposal.

     At OIG's request the subject wrote an acknowledgment for the revised proposal. OIG
 reviewed and approved this acknowledgment. The subject then amended his proposal by
 forwarding a copy of the acknowledgment to the NSF program for insertion in his proposal.
 OIG confumed that the acknowledgment had been inserted into the proposal.

     OIG feels that the subject has taken the appropriate remedial action. This case is closed
 without further action.




                                                                       March 30, 1993




                                             Page 1 of 2
                                                  .90-36
                             CLOSEOUT FOR M90100036




                                                  James J. ~kolenik
                                                  -AssistantInspector Geneml for Oversight




cc:   Assistant Inspector General for Oversight
      Lnspector General




                                       Page 2 of 2
                                           q0-3ca
